U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Lawrence Johnson v. United States of America,
S.Ct. No. 20-1017

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 22,
2021, and placed on the docket on January 28, 2021. The government’s response is due on
March 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1017
JOHNSON, LAWRENCE
USA

CARLA M. SANDERSON
CARLA SANDERSON LAW
260 MADISON AVE.
FLOOR 22
NEW YORK, NY 10016
LOUIS M. FREEMAN
FREEMAN, NOOTER & GINSBERG
75 MAIDEN LN.
NO. 503
NEW YORK, NY 10038
212-606-0808
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM

